Pggggik SUPREME COURT OF GEORGIA
Ifljl Case No. S21A0175
1845

October 5, 2020

The Honorable Supreme Court met pursuant to adjournment.
The following order was passed:
TPD
A TvnrrtT' T T7WTO 7 OVO? a
X' XWTi.X’tXXX.lxrxjX.; VY X£_» y 'XJ.’IJLIU

V.

mT.ITT?
Q'nA'T'TT'
X XXXX UJXiXXJ.

Appellant was convicted of felony murder and burglary, and
this Court affirmed the judgment entered on those convictions. See
Jones v. State, 281 Ga. 789 (642 SE2d 67) (2007). This appeal arises
from appellant’s motion to dismiss the criminal judgment against
him as void, based on an alleged violation of the Interstate
Agreement on Detainers. However, such a motion is a nullity, see
Harper v. State, 286 Ga. 216, 217 (686 SE2d 786) (2009), and the
court below should have dismissed the motion, rather than denying
it after a discussion of the merits, see Brooks v. State, 301 Ga. 748,
752 (804 SE2d 1) (2017). Accordingly, the lower court’s order is
vacated and the proceedings are remanded to that court for the entry
of an order dismissing appellant’s unauthorized motion.
All the Justices concur.
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

))

13.

if

IN THE SUPERIOR COURT OF GLYNN COUNTY
STATE OF GEORGIA
STATE OF GEORGIA

)
)

)

vs.

CASE NO. 0200530

)

FRANKIE LEWIS JONES,

)
)

Defendant.

)

ORDER
This case is before the Court on Defendant’s pro se Motion to Dismiss
Conviction. In 2004, Defendant was convicted by a jury of felony murder, armed
robbery and burglary. For sentencing purposes, the armed robbery conviction
merged into the felony murder conviction, and Defendant was sentenced to life
imprisonment for felony murder and 20 years for burglary, to run consecutively.
In his motion, Defendant contends his conviction and sentence are void in violation
of the interstate agreement on detainers. i
The record reflejcts that Defendant was indicted by the Glynn County Grand
Jury on November 20,f2002* and arrested on or about Januafy~8, 2003r, at which
time he was in prison ^t the Federal Correctional Complex in Coleman, Florida for
i

unrelated offenses. Trail counsel was appointed by the Court to represent

1 See O.C.G.A. § 42-6-20.

1

S'J^ppeniix ft*1'

Defendant on the charges. It is unclear from the record whether Defendant ever
delivered to the District Attorney written notice of his request for final disposition
of the Glynn County charges; however, for purposes of this motion the Court will
proceed as if he did. The record reflects there were multiple motion hearings and
other appearances, ancl there was a continuance granted to the State for good cause
shown. Ultimately, the case was tried in Maisfa of 2004$ and the jury found
Defendant guilty on all counts.
The Agreement on Detainers Act states, in pertinent part:
Whenever a person has entered upon a term of imprisonment in a penal or
correctional institution of a party state, and whenever during the continuance
of the term of imprisonment there is pending in any other party state any
untried indictment, information or complaint on the basis of which a detainer
has been lodged against the prisoner, he shall be brought to trial within one
hundred eighty (Jays after he shall have caused to be delivered to the
prosecuting officer and the appropriate court of the prosecuting officer's
jurisdiction written notice of the place of his imprisonment and his request
for a final disposition to be made of the indictment, information or
complaint, provided that for good cause shown in open court, the prisoner or
his counsel being present, the court having jurisdiction of the matter may
grant any necessary or reasonable continuance.
Here, even assuming arguendo Defendant had provided the requisite notice
under the Interstate Agreement on Detainers, the Court finds that he nonetheless
was timely tried absent a showing that the grant of continuance to the State was fidt
necessary or reasonable,.,2 Defendant’s conclusory and unsubstantiated statement

2 Parrott v. State, 206 Ga.App. 8: \9 (1992), cert, denied.

s

I

that there was something untoward going on between the Court and the State
relative to the continuance is not enough.

I
Accordingly, Defendant’s motion to dismiss is hereby DENIED.
;

i

SO ORDERED, this

day of March, 2018.

■i

I

1

l

STEPHEN G. SCARLETT, SrJ
Chief Judge, Superior Courts
Brunswick Judicial Circuit

i

l

:■

i

!
!

!■

r

FILED - RM
GLYNN CO. CLERK'S OFFICE
Filed 8/20/2020 11:37 AM
Accepted 8/20/2020 1:18 PM
CASE# 0200530
./if]

o
IN THE SUPERIOR COURT OF GLYNN COUNTY

CLERK SUPERIOR COURT

I

STATE OF GEORGIA
STATE OF GEORGIA

)
)

)

vs.

CASE NO. 0200530

)

FRANKIE LEWIS JONES,

)
)

Defendant.

)
i

AMENDED ORDER TO CORRECT SCRIVENER’S ERROR
This Court’s Order on Defendant’s motion to dismiss, entered March 21,
2020, having been erroneously dated March 20, 2018, when same should have
been dated March 20, 2020, is hereby AMENDED to correct the scrivener’s error
misdating same.

The Order as amended should read “SO ORDERED this 20th

day of March, 2020.”

SO ORDERED, thisffVday of August, 2020.

STEPHEN G. SCARLETT,
Chief Judge, Superior Courts
Brunswick Judicial Circuit

\

IN THE SUPERIOR COURT OF GLYNN COUNTY
STATE OF GEORGIA
STATE OF GEORGIA

)
)
)
)
)
)
)

VS;

FRANKIE LEWIS JONES,
Defendant.

CASE NO. 0200530

ORDER
This ease is back before the Court On Defendant’s pro se Motion to Dismiss
Conviction pursuant to the Remittitur from the Supreme Court of Georgia wherein
this Court was instructed to issue an order dismissing Defendant’s motion, rather than
denying it after a discussion of the merits. In his motion, Defendant contends the
criminal judgment against him is void based upon an alleged violation of the Interstate
Agreement on Detainers. However, such a motion is a nullity. “A petition to vacate
or modify a judgment of conviction is not an appropriate remedy in a criminal Case,
Accordingly, Defendant’s motion is hereby DISMISSED.

SO ORDERED,

this jjb^day of November

, 2020.

)/

STEPHEN G. SCARLETT, SR.
Chief Judge, Superior Courts
Brunswick Judicial Circuit
Harper, State, 286 Ga. 216,218 (2009).

ue,

3V Hf p^fidtjc C.

H

Additional material
from this filing is
available in the
Clerk's Office.

